             Audit Report



Administrative Costs Claimed by the
Tennessee Disability Determination
             Services




        A-04-12-11298 | May 2013
MEMORANDUM


Date:      May 22, 2013                                                       Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Atlanta
From:      Inspector General
Subject:   Administrative Costs Claimed by the Tennessee Disability Determination Services
           (A-04-12-11298)

           The attached final report presents the results of our audit. Our objectives were, for Federal
           Fiscal Years 2010 and 2011, to (1) evaluate the internal controls over the accounting and
           reporting of administrative costs claimed by the Tennessee Disability Determination Services;
           (2) determine whether the costs claimed were allowable and funds were properly drawn; and
           (3) assess, on a limited basis, the general security controls environment.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment

           cc:
           Ann Robert, Acting Associate Commissioner for Disability Determinations
           Carla Krabbe, Associate Commissioner for Financial Policy and Operations
           Gary S. Hatcher, Senior Advisor for Records Management and Audit Liaison Staff
           Dr. Raquel Hatter, Commissioner, Tennessee Department of Human Services
           Tamra L. Smith, Director, Tennessee Disability Determination Services
Administrative Costs Claimed by the Tennessee Disability
Determination Services
A-04-12-11298
May 2013                                                                       Office of Audit Report Summary

Objectives                                     Our Findings

For Federal Fiscal Years (FFY) 2010 and        TN-DDS claimed $409,107 and $898,650 in unallowable costs for
2011, to (1) evaluate the internal controls    FFYs 2010 and 2011, respectively. Also, in FFY 2010, TN-DDS
over the accounting and reporting of           incorrectly claimed $538,789 in FFY 2009 occupancy (rent) costs
administrative costs claimed by the            that it did not claim on its FFY 2009 SSA-4513. TN-DDS
Tennessee Disability Determination             overstated costs on the State Agency Report of Obligations for SSA
Services (TN-DDS); (2) determine               Disability Programs (Form SSA-4513) because the cost data the
whether the costs claimed were allowable
                                               parent agency extracted from its new accounting system were not
and funds were properly drawn; and
(3) assess, on a limited basis, the general
                                               accurate. Most of the overstated costs occurred in the occupancy
security controls environment.                 cost category. TN-DDS’ parent agency has since improved its
                                               process for extracting the TN-DDS cost data from the new State
Background                                     accounting system.

Disability determination services (DDS) in     Except for these unallowable costs, we determined costs TN-DDS
each State or other responsible jurisdiction   claimed from October 1, 2009 through September 30, 2011 were
perform disability determinations under        allowable and properly allocated, and the system of internal
the Social Security Administration’s           controls over the accounting and reporting of administrative costs
(SSA) Disability Insurance and                 was effective. In addition, TN-DDS properly drew Federal funds
Supplemental Security Income programs.         for the costs it claimed on Form SSA-4513 for FFYs 2010 and
DDSs must perform such determinations          2011. Finally, our limited review of TN-DDS’ controls over its
in accordance with Federal law and
                                               physical security and personally identifiable information showed
regulations. Each DDS is responsible for
determining claimants’ disabilities and        that controls were generally in place. However, the building’s fire
ensuring adequate evidence is available to     suppression (sprinkler) system routed through TN-DDS’ computer
support its determinations.                    room, which placed computers at risk of accidental water damage.

To make proper disability determinations,      Our Recommendations
SSA authorizes each DDS to purchase
medical examinations, X rays, and              We recommended that SSA:
laboratory tests on a consultative basis to
supplement evidence obtained from the          1. Instruct TN-DDS to revise its Forms SSA-4513 for FFYs 2009
claimants’ physicians or other treating           through 2011 to include unclaimed occupancy costs in
sources. SSA reimburses the DDS for               FFY 2009 and reflect only the allowable costs in FFYs 2010
100 percent of allowable reported                 and 2011 and refund all cash drawn in excess of the revised
expenditures up to its approved funding           costs for these FFYs.
authorization. In FFYs 2010 and 2011,
TN-DDS claimed administrative costs            2. Instruct TN-DDS to take action to mitigate the risk of water
totaling $121.2 million.                          from the sprinkler system damaging computers in the computer
                                                  room.

                                               SSA and TN-DDS’ parent agency agreed with our
                                               recommendations.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Unallowable Costs .....................................................................................................................2
           FFY 2010 Unallowable Costs ..............................................................................................2
           FFY 2011 Unallowable Costs ..............................................................................................4
     General Security Controls Concern ...........................................................................................5
Conclusions ......................................................................................................................................5
Recommendations ............................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Background, Scope, and Methodology ............................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Tennessee Department of Human Services Comments ...................................... C-1
Appendix D – Major Contributors.............................................................................................. D-1




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)
ABBREVIATIONS
ASAP                 Automated Standard Application for Payments

C.F.R.               Code of Federal Regulations

DDS                  Disability Determination Services

FFY                  Federal Fiscal Year

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

POMS                 Program Operations Manual System

SSA                  Social Security Administration

TN-DDS               Tennessee Disability Determination Services

TN-DHS               Tennessee Department of Human Services

TN-DRS               Tennessee Division of Rehabilitation Services

U.S.C.               United States Code

Form

Form SSA-4513        State Agency Report of Obligations for SSA Disability Programs




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)
OBJECTIVES
Our objectives were, for Federal Fiscal Years (FFY) 2010 and 2011, to (1) evaluate the internal
controls over the accounting and reporting of administrative costs claimed by the Tennessee
Disability Determination Services (TN-DDS); (2) determine whether the costs claimed were
allowable and funds were properly drawn; and (3) assess, on a limited basis, the general security
controls environment.

BACKGROUND
Disability determination services (DDS) in each State or other responsible jurisdiction perform
disability determinations under the Social Security Administration’s (SSA) Disability Insurance
and Supplemental Security Income programs. DDSs are required to perform such
determinations in accordance with Federal law and regulations. 1 Each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to support its
determinations.

To make proper disability determinations, SSA authorizes each DDS to purchase medical
examinations, X rays, and laboratory tests on a consultative basis to supplement evidence
obtained from the claimants’ physicians or other treating sources when the evidence as a whole,
both medical and nonmedical, is insufficient to make a disability determination. 2 SSA
reimburses the DDS for 100 percent of allowable expenditures up to its approved funding
authorization for costs reported on a Form SSA-4513, State Agency Report of Obligations for
SSA Disability Programs. 3 The DDS withdraws Federal funds through the Department of the
Treasury’s Automated Standard Application for Payments (ASAP) system to pay for program
expenditures.

TN-DDS is a component of the Tennessee Division of Rehabilitation Services (TN-DRS) in the
Tennessee Department of Human Services (TN-DHS). The Division of Finance and
Administration, within the TN-DHS, accounts for TN-DDS’ disbursements and prepares the
Form SSA-4513. The State’s indirect costs for TN-DDS are determined based on a cost
allocation plan approved by the Department of Health and Human Services. In FFYs 2010 and
2011, TN-DDS claimed costs of about $58.6 and $62.6 million, respectively. For additional
background, scope, and methodology, see Appendix A.




1
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et seq., and 416.1001,
et seq.
2
    SSA, Programs Operations Manual (POMS), DI 39545.120.A. (April 20, 2007).
3
 SSA, POMS, DI 39501.020 B. (February 28, 2002), DI 39506.001.B. (March 12, 2002), and DI 39506.202.A.
(March 12, 2002).




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)                   1
RESULTS OF REVIEW
Except for the unallowable costs TN-DDS claimed because of errors in obtaining data from the
new State-wide accounting system, we determined that costs TN-DDS claimed from
October 1, 2009 through September 30, 2011 were allowable and properly allocated, and the
system of internal controls over the accounting and reporting of administrative costs was
effective. In addition, TN-DDS properly drew Federal funds for the costs it claimed on Form
SSA-4513 for FFYs 2010 and 2011. Finally, our limited review of TN-DDS’ controls over its
physical security and personally identifiable information showed that controls were generally in
place. However, the building’s fire suppression (sprinkler) system was routed through TN-DDS’
computer room. As such, the computers were at risk of accidental water damage.

Unallowable Costs
During our audit period, TN-DDS claimed reimbursement for about $1.3 million in unallowable
costs: $409,107 and $898,650 in FFYs 2010 and 2011, respectively.

FFY 2010 Unallowable Costs
In FFY 2010, TN-DDS claimed $409,107 in unallowable costs. Also, TN-DDS incorrectly
claimed $538,789 in occupancy (rent) costs that it should have claimed on its FFY 2009
SSA-4513. 4 According to a TN-DRS official, in October 2009, the State of Tennessee
completed its transition to a new accounting system. The transition affected how TN-DRS
obtained the cost data needed to complete the Form SSA-4513. During our audit, TN-DRS
found that it did not properly extract TN-DDS’ cost data from the new accounting system. As a
result, TN-DDS overstated costs claimed in several categories on Form SSA-4513, while
understating costs in other categories. Table 1 details FFY 2010 allowable costs by
Form SSA-4513 cost category.




4
 TN-DDS claimed occupancy costs of $538,789 in FFY 2010 that were valid but should have been claimed in
FFY 2009. We did not disallow these costs.




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)           2
                        Table 1: FFY 2010 Allowable Costs by Cost Category
              Form SSA-4513                 Form SSA-4513               Allowable             Change in
               Cost Category                 Costs Claimed                Costs            Allowable Costs
        Personnel                              $25,318,493            $25,364,561                $46,068
        Medical                                 24,810,954             24,456,821              (354,133)
        Indirect                                 2,191,248              2,191,248                      0
        Occupancy                                3,033,317              2,842,953              (190,364)
        Contracted Costs                           639,066                639,076                     10
        Electronic Data Processing                 150,730                150,730                      0
        Maintenance
        Equipment Rental                             52,359                 52,360                      1
        Communications                            1,161,827              1,247,072                85,245
        Applicant Travel                            898,139                898,139                      0
        DDS Travel                                   71,626                 71,605                   (21)
        Supplies                                    195,939                203,755                  7,816
        Miscellaneous                               480,655                476,926                (3,729)
                    Totals                     $59,004,353            $58,595,246             ($409,107)

In addition to claiming certain unallowable occupancy costs, in FFY 2010, TN-DDS incorrectly
claimed $538,789 in rent for the last 3 months of FFY 2009. A TN-DRS official explained that
the State did not record all its rent costs during the latter months of FFY 2009, when it was
transitioning to the new accounting system. After the transition was complete, the State recorded
the 3 months of TN-DDS’ FFY 2009 rent as a FFY 2010 cost.

Although TN-DDS did not claim the $538,789 in FFY 2009 rent on that year’s Form SSA-4513,
Federal law prohibits using funds authorized for 1 year for a different year’s costs. 5 However, a
DDS’ financial reporting period may extend beyond the end of a FFY. 6 Specifically, a DDS’
FFY reporting period remains open until all the FFY fund obligations are liquidated or until the
end of the fifth FFY after the year for which SSA obligated funds. As such, we believe TN-DDS
should revise its FFYs 2009 and 2010 Forms SSA-4513 to report the $538,789 in occupancy
costs in the correct FFYs.




5
 31 U.S.C. § 1502 (a) provides, in part that, “The balance of an appropriation or fund limited for obligation to a
definite period is available only for payment of expenses properly incurred during the period of availability. . .
However, the appropriation or fund is not available for expenditure for a period beyond the period otherwise
authorized by law.”
6
  When a DDS’ financial reporting period extends beyond the fourth quarter of a FFY, the DDS must continue
reporting quarterly to SSA (on Form SSA-4513) its cumulative costs, including adjustments to previously reported
costs. POMS, DI 39506.201.A. (March 12, 2002) and DI 39506.203.B. (March 12, 2002).




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)                      3
FFY 2011 Unallowable Costs
In FFY 2011, TN-DDS claimed $898,650 in unallowable costs. Similar to FFY 2010, TN-DDS
claimed reimbursement for overstated costs due to errors in extracting the TN-DDS cost data
from the new State accounting system. Additionally, like FFY 2010, almost all the overstated
costs were in the occupancy cost category. Particular to FFY 2011, we determined the cost data
used to develop the occupancy costs claimed on Form SSA-4513 included a duplicate accounting
entry. This error explained $356,072 of the overstated costs. Table 2 details FFY 2011
allowable costs, by Form SSA-4513 cost category.

                      Table 2: FFY 2011 Allowable Costs by Cost Category
              Form SSA-4513          Form SSA-4513     Allowable                     Change in
               Cost Category          Costs Claimed      Costs                    Allowable Costs
        Personnel                       $27,121,559   $27,158,366                        $36,807
        Medical                          25,494,007    25,598,178                        104,171
        Indirect                          3,063,211     3,063,211                              0
        Occupancy                         3,247,453     2,141,826                    (1,105,627)
        Contracted Costs                    747,987       747,987                              0
        Electronic Data Processing
                                            165,579       165,579                                 0
        Maintenance
        Equipment Purchases                 375,503       372,503                         (3,000)
        Equipment Rental                     29,458        29,458                               0
        Communications                    1,224,210     1,257,799                         33,589
        Applicant Travel                    924,268       924,268                               0
        DDS Travel                          104,507       104,471                            (36)
        Supplies                            199,735       199,626                           (109)
        Miscellaneous                       445,427       443,197                         (2,230)
                   Totals               $63,142,904   $62,206,469                     ($936,435)
             Adjustment Due to SSA’s FFY 2010 Fund Reductions 7                          $37,785
                           Change in Allowable Costs                                  ($898,650)

A TN-DRS official explained that it had improved its process for extracting TN-DDS’ cost data
from the new State accounting system. As such, the official stated that costs claimed on
subsequent years’ Forms SSA-4513 should be accurate. Finally, the parent agency confirmed
that the occupancy costs claimed on TN-DDS’ FFY 2012 Form SSA-4513 were accurate. The
occupancy costs claimed were about $2.1 million—the cost of only 12 months of rent (with no
other lease or improvement costs).


7
  In September 2011, SSA reduced TN-DDS’ FY 2010 cash fund to $63,105,119. As such, TN-DDS’ total
FY 2011cash draws were $37,785 less than the costs reported on the FY 2010 SSA-4513. Accordingly, we adjusted
the change in allowable costs by this amount.




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)             4
General Security Controls Concern
The building’s fire suppression (sprinkler) system was routed through TN-DDS’ computer room.
Specifically, water pipes that supplied the sprinkler system and several sprinkler heads were
located in the computer room’s ceiling. As such, if a water pipe leaked, a sprinkler head failed
and disbursed water, or the sprinkler system was activated, SSA’s computer and TN-DDS’ case
management computer could have been damaged. Accordingly, we recommend TN-DDS take
action to mitigate the risk of water from the sprinkler system damaging computers in the
computer room.

CONCLUSIONS
During our audit period, TN-DDS claimed reimbursement for about $1.3 million in unallowable
costs. Specifically, TN-DDS claimed $409,107 and $898,650 in unallowable costs for
FFYs 2010 and 2011, respectively. Additionally, in FFY 2010, TN-DDS incorrectly claimed
$538,789 of FFY 2009 occupancy costs that it did not claim on its FFY 2009 SSA-4513.
TN-DDS claimed reimbursement for overstated costs on Forms SSA-4513 because the cost data
TN-DRS extracted from its new State-wide accounting system were not accurate. Most of the
overstated costs were in the occupancy cost category. TN-DRS had improved its process for
extracting the TN-DDS cost data from the new State accounting system, which should increase
the accuracy of costs claimed on subsequent years’ Forms SSA-4513.

Except for these unallowable costs, we determined that costs TN-DDS claimed from
October 1, 2009 through September 30, 2011 were allowable and properly allocated, and the
system of internal controls over the accounting and reporting of administrative costs was
effective. In addition, TN-DDS properly drew Federal funds for the costs it claimed on Form
SSA-4513 for FFYs 2010 and 2011. Finally, our limited review of TN-DDS’ controls over its
physical security and personally identifiable information showed that controls were generally in
place. However, the building’s fire suppression (sprinkler) system was routed through TN-DDS’
computer room. As such, the computers were at risk of accidental water damage.

RECOMMENDATIONS
Accordingly, we recommend that SSA:

1. Instruct TN-DDS to revise its Forms SSA-4513 for FFYs 2009 through 2011 to include
   unclaimed occupancy costs in FFY 2009 and reflect only the allowable costs in FFYs 2010
   and 2011 and refund all cash drawn in excess of the revised costs for these FFYs.

2. Instruct TN-DDS to take action to mitigate the risk of water from the sprinkler system
   damaging computers in the computer room.

AGENCY COMMENTS
SSA and TN-DHS agreed with our recommendations. See Appendix B for the full text of the
Agency’s comments and Appendix C for the full text of TN-DHS’ comments.

Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   5
                                        APPENDICES




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)
Appendix A – BACKGROUND, SCOPE, AND METHODOLOGY
BACKGROUND
The Disability Insurance program, established under Title II of the Social Security Act, provides
benefits to wage earners and their families in the event the wage earner becomes disabled. The
Supplemental Security Income program, established under Title XVI of the Social Security Act,
provides benefits to financially needy individuals who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies to develop
disability claims under the Disability Insurance and Supplemental Security Income programs.
Disability determination services (DDS) in each State, Puerto Rico, Guam, the U.S. Virgin
Islands, and the District of Columbia perform disability determinations under both programs.
Such determinations must be performed in accordance with Federal law and underlying
regulation. 1 In carrying out its obligation, each DDS is responsible for determining claimants’
disabilities and ensuring adequate evidence is available to support its determinations. To assist
in making proper disability determinations, SSA authorizes each DDS to purchase medical
examinations, X rays, and laboratory tests on a consultative basis to supplement evidence from
the claimants’ physicians or other treating sources when the evidence as a whole, both medical
and nonmedical, is insufficient to make a disability determination. 2

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s Automated Standard Application for Payments System to pay for program
expenditures. Funds drawn down must comply with Federal regulations 3 and intergovernmental
agreements entered into by the Department of the Treasury and States under the Cash
Management Improvement Act of 1990. 4 An advance or reimbursement for costs under the
program must comply with Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments. At the end of each quarter of the
Federal Fiscal Year (FFY), each DDS submits a State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513) to account for program disbursements and unliquidated
obligations.




1
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601 et. seq. and 416.1001 et.
seq.
2
    SSA, POMS, DI 39545.120.A. (April 20, 2007).
3
    31 C.F.R. Part 205.
4
    Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (1990).




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)              A-1
SCOPE
To accomplish our objectives, we reviewed the administrative costs Tennessee Disability
Determination Services (TN-DDS) reported on its Forms SSA-4513 for FFYs 2010 and 2011.
For the periods reviewed, we obtained evidence to evaluate recorded financial transactions and
determine whether they were allowable, under OMB Circular A-87, and appropriate, as defined
by SSA’s Program Operations Manual System (POMS).

We also:

•   Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s POMS
    pertaining to administrative costs claimed by TN-DDS and draw down of the SSA funds.

•   Interviewed staff at TN-DDS, the Tennessee Division of Rehabilitation Services, and SSA’s
    Atlanta Regional Office.

•   Evaluated and tested internal controls regarding accounting and financial reporting and cash
    management activities.

•   Reconciled the State’s electronic cost data to the administrative costs reported by TN-DDS
    on Forms SSA-4513 for FFYs 2010 and 2011.

•   Examined the Personnel, Medical, and All Other Non-personnel costs that TN-DDS claimed
    on Forms SSA-4513 for FFYs 2010 and 2011.

•   Examined the indirect costs TN-DDS claimed for FFYs 2010 and 2011 and the
    corresponding Cost Allocation Plans.

•   Compared the amount of SSA funds drawn to support program operations to the allowable
    expenditures reported on Forms SSA-4513.

•   Determined whether TN-DDS excluded the cost of non-SSA work from the costs it claimed
    on Forms SSA-4513 for FFYs 2010 and 2011.

•   Conducted limited general control testing—which encompassed reviewing the physical
    access security in the TN-DDS.

•   Reviewed policies and procedures related to personally identifiable information to determine
    whether TN-DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit objectives.
We assessed the reliability of the electronic data by reconciling them with the costs claimed on
Forms SSA-4513. We also conducted detailed audit testing on selected data elements in the
electronic data files.

We conducted our audit at TN-DDS in Nashville, Tennessee, and the Office of Audit in
Atlanta, Georgia, from May 2012 through February 2013. We conducted our audit in

Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   A-2
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

METHODOLOGY
Our sampling methodology encompassed the four general areas of costs as reported on Forms
SSA-4513: (1) Personnel, (2) Medical, (3) Indirect, and (4) All Other Non-personnel. We
obtained computerized cost data from TN-DDS for FFYs 2010 and 2011. We used the
computerized data to select a statistical sample for our control tests.

Personnel Costs
For our control tests, we sampled 50 employee salary items from 1 randomly selected pay period
in FFY 2011. We tested regular and overtime payroll and hours for each individual selected.
We verified that approved time records were maintained and supported the hours worked.

Medical Costs
For our control tests, we sampled 100 medical evidence of record and consultative examination
(50 items from each FFY) using a proportional random sample.

Indirect Costs
For our control tests, we reviewed indirect costs for 1 quarter in both FFYs 2010 and 2011. We
tested selected indirect cost pools included in the cost allocation plan.

All Other Non-Personnel Costs
We stratified All Other Non-personnel costs into eight categories: (1) Contracted Costs,
(2) Electronic Data Processing Maintenance, (3) Equipment Purchases and Rental,
(4) Communications, (5) Applicant Travel, (6) DDS Travel, (7) Supplies, and (8) Miscellaneous.
For our control tests, we selected a stratified random sample of 50 items from each FFY based on
the percentage of costs in each category—excluding the rent portion of Occupancy costs. For
Occupancy costs, we tested 100 percent of the rent portion of the costs charged in both FFYs.

General Security Controls
We conducted limited general security control testing. Specifically, we reviewed the following
eight areas relating to general security controls: (1) Perimeter Security, (2) Internal Security,
(3) Physical Access Controls, (4) Visitor Access Guidelines, (5) Office Safety, (6) Personally
Identifiable Information, (7) Security Plan, and (8) Other Security Controls.




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   A-3
Appendix B – AGENCY COMMENTS




                       SOCIAL SECURITY ADMINISTRATION


MEMORANDUM

Date:      May 3, 2013

To:        Inspector General

From:      Regional Commissioner
           Atlanta

Subject: Administrative Costs Claimed by the Tennessee Disability Determination
         Services (TN-DDS) – A 04-12-11298 - REPLY

Thank you for the opportunity to comment on the recommendations presented in the
draft audit report of Administrative Costs Claimed by the Tennessee Disability
Determination Services (TN-DDS) for the Federal Fiscal Years 2010 and 2011. We
found the Office of Inspector General’s (OIG) audit of the TN-DDS to be detailed and
comprehensive. Specifically, the auditors reviewed the internal controls over the
accounting and reporting of administrative costs claimed by the TN-DDS; determined
whether the costs claimed were allowable and funds were properly drawn; and
assessed the general security controls environment. Overall, the Atlanta Regional
Office (ARO) concurs with the draft report’s findings and recommendations.

The ARO is already working with the TN DDS and its parent agency to resolve the two
recommendations resulting from the audit findings. Our specific comments on each
OIG recommendation, as well as the current actions taken, are summarized below:

1. Instruct TN-DDS to revise its Forms SSA-4513 for FFYs 2009 through 2011 to
   include unclaimed occupancy costs in FFY 2009 and reflect only the allowable
   costs in FFYs 2010 and 2011 and refund all cash drawn in excess of the
   revised costs for these FFYs.

      The TN-DDS Parent Agency’s Controllers Office is responsible for these forms. The
      TN-DDS is working with them to make the corrections and refund excess cash
      drawn. We will advise when this has been completed.


Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   B-1
2. Instruct TN-DDS to take action to mitigate the risk of water from the sprinkler
   system damaging computers in the computer room.

    The TN-DDS is currently exploring options with the landlord regarding installation of
    Early Warning Water Leak Detection Equipment and Device products in the ceiling
    tiles of the computer system room and obtaining quotes. Once quotes received from
    the landlord, the TN-DDS will submit to the ARO for approval.

Please contact me if I can be of further assistance. Staff questions should be referred
to Sarah Henderson, Disability Program Administrator, in the Atlanta Region’s Center
for Disability at 404-562-1397.



                                       Michael W. Grochowski




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   B-2
Appendix C – TENNESSEE DEPARTMENT OF HUMAN
             SERVICES COMMENTS




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   C-1
Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   C-2
Appendix D – MAJOR CONTRIBUTORS
Kimberly Byrd, Director

Frank Nagy, Audit Manager

Jordan Sherman, Auditor

Luis A. Ramirez, Audit Data Specialist




Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-12-11298)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
